Executive Report



Return to the USDOJ/OIG Home Page



Office of Justice ProgramsDrug Court Implementation Initiative GrantAdministered by Eaton County, Michigan
GR-50-00-013February 25, 2000Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of the $181,883 drug court grant awarded by the U.S. Department of Justice, Office of Justice Programs (OJP), to Eaton County, Michigan (the County).  The grant was awarded for the period May 1, 1997, through October 31, 1998, and was later extended through October 31, 1999.  We tested the accuracy and reliability of the Eaton County accounting system, reviewed the General Ledger, and evaluated whether costs were allowable and in accordance with applicable laws and regulations. 

Our audit revealed that, generally, the County properly managed the grant.  However, it lacked adequate procedures to calculate and account for program income.  In addition, the County transferred $3,810 between the approved grant budget categories, in excess of the 10 percent allowed, without OJP's approval.   Also, two reports were submitted late.

These items are discussed in the Findings and Recommendations section of the report.  Our scope and methodology appear in Appendix I.